2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

e E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-107
CEDAR POINT NURSERY AND
FOWLER PACKING COMPANY, INC.,
Petitioners,

VICTORIA HASSID, IN HER OFFICIAL
CAPACITY AS CHAIR OF THE AGRICULTURAL
LABOR RELATIONS BOARD; ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
NATIONAL EMPLOYMENT LAW PROJECT, NATIONAL WOMEN’S LAW CENTER,
LATINOJUSTICE PRLDEF, PUBLIC JUSTICE, NATIONAL COUNCIL FOR OCCUPATIONAL
SAFETY AND HEALTH, WORKSAFE, FOOD CHAIN WORKERS ALLIANCE, JUSTICE FOR
MIGRANT WOMEN, NATIONAL COUNCIL OF JEWISH WOMEN, INC., HEARTLAND
CENTER FOR JOBS AND FREEDOM, ECONOMIC POLICY INSTITUTE, NATIONAL
EMPLOYMENT LAWYERS’ ASSOCIATION, NATIONAL CENTER FOR LAW AND
ECONOMIC JUSTICE, AND JUSTICE AT WORK IN SUPPORT OF RESPONDENTS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 6727 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 10th day of February, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

My Comm. Exp. September 5, 2023

GENERAL NOTARY-State of Nebraska &
i RENEE J. GOSS 9. { Vir digi 4 Chk,

Notary Public Affiant 40561
